IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-422
PATRICK J. COLLINS, ET AL., PETITIONERS
v.
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY, ET AL.
_______________
No. 19-563
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY, ET AL.,
PETITIONERS
v.
PATRICK J. COLLINS, ET AL.
_______________
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________
MOTION OF THE FEDERAL PARTIES
FOR DIVIDED ARGUMENT AND
ENLARGEMENT OF TIME FOR ARGUMENT
_______________
Pursuant to Rule 28 of the Rules of this Court, the Solicitor
General, on behalf of the federal parties, respectfully moves that
the time allotted for oral argument be enlarged and allocated as

2
set forth below.

The federal parties have consulted with both

Plaintiffs and the Court-appointed amicus.

Plaintiffs consent to

the proposed structure for oral argument set out below. The Courtappointed

amicus

does

not

object

to

this

motion,

though

he

ultimately takes no position on it and defers to the Court.
1.

These cases present challenges by shareholders of Fannie

Mae and Freddie Mac to the Third Amendment to preferred stock
purchase agreements between the Department of the Treasury and the
Federal Housing Finance Agency (FHFA).

The petition for a writ of

certiorari in No. 19-563 presents statutory questions concerning
whether the succession clause and anti-injunction clause of the
Housing and Economic Recovery Act of 2008, Pub. L. No. 110-289,
122 Stat. 2654, bar Plaintiffs’ challenges to the Third Amendment.
The petition for a writ of certiorari in No. 19-422 presents
constitutional
Recovery

Act’s

and

remedial

provision

questions

granting

concerning

removal

whether

protection

to

the
the

Director of FHFA violates the separation of powers, whether that
provision is severable from the rest of the statute, and whether
the Third Amendment should be invalidated as a result of that
asserted constitutional defect.

Although the federal parties and

Plaintiffs disagree on almost all of the questions presented, they
agree that the FHFA Director’s removal protection violates the
Constitution, and so this Court has appointed an amicus curiae to
defend the position that the structure of FHFA does not violate
the separation of powers.

3
2.

The federal parties and Plaintiffs respectfully request

that the Court enlarge the time for oral argument to a total of
100 minutes and allocate the time as follows:

40 minutes for the

federal parties, 15 minutes for the Court-appointed amicus, and 45
minutes for Plaintiffs, with the federal parties opening the
argument (as they did the briefing) and presenting rebuttal.

That

modest extension for the parties would enable them more fully to
address

the

multiple

distinct,

complex,

and

important

issues

presented by these cases -- which led the en banc court of appeals
to issue eight separate opinions spanning almost 150 pages, and
which will have been addressed in five briefs totaling nearly
65,000 words.

The federal parties and Plaintiffs propose that the

Court-appointed

amicus

be

allocated

15

minutes

because

the

constitutional question he addresses is just one of several in the
case.

Finally, because one of amicus’s subsidiary arguments is

also pressed by the federal parties in connection with the remedial
question, the federal parties have proposed a slightly smaller
extension for their time than for the Plaintiffs’.
3.

The Court-appointed amicus curiae does not object to

this allocation of time, though he ultimately takes no position on
it and defers to the Court as to any allocation it deems helpful.

4
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record

OCTOBER 2020

